Certificate of Service

On this Date, a true copy of the attached instrument was emailed/mailed to the
below named individuals).

For Timeliness-purposes, it shall be presumed that the parties received the
attached Writ of Certiorari & Appendix on the same day when sent Electronically.
The Foregoing was sent on May 21, 2020.

Here List the Names of the Individual(s) that I sent the Document to Below:
Solicitor General of the United States:
Department of Justice
950 Pennsylvania Avenue North West
Room 5614
N.W. Washington DC, 20530-0001
(3) Copies: Writ of Certiorari & Appendix
Emailed:
Kelly. Krvstyniak@usdoi. gov
sunremectbriefs@usdoi. gov

Sh/hl^)
Tonya Knowles- Pro Se

